Executive Report


Return to the USDOJ/OIG Home Page


Office of Community Oriented Policing Services
Grants to the Grand Rapids, Michigan Police Department
GR-50-00-003
November 19, 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of a grant awarded by the Office of Community Oriented Policing Services to the Grand Rapids Police Department (Grand Rapids PD). The purpose of the grant is to enhance community policing.  The Grand Rapids PD was awarded a total of $1,275,000 under the Phase I grant program to hire 17 full-time officers to perform community policing.

We reviewed the grantee's compliance with seven essential grant conditions and found its practices to be acceptable in six of the areas.  However, our audit disclosed $29,039 in questioned costs. 1 Specifically, the Grand Rapids PD received reimbursements for $17,807 in unallowable expenditures and $11,232 in unsupported expenditures.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I. 


Footnote
The Inspector General Act of 1988 contains our reporting requirements for questioned costs; however, not all findings are dollar-related.  See Appendix III for a definition of questioned costs.